                                                                                         Page 1




MEMORANDUM

Date:           March 6,2001

To:             File No. 1-99070031

From:        !-I                                          t t o r n e e

Via:




-
Subject:                        Closeout



Backpround:

In 1998, the       u                                                  -    received an
anonymous ti that the director of the                      center had misappropriated NSF
funds. &s        internal audit detected potential misuse of federal funds at the
                                                     . The director of the         was-




In a memo dated December 8, 1998, -auditor,                                   advised the Director of
Sponsored programs, -  ,          s that :         Internal Audit revealed possible fraudulent use
of federal and state funds at the          The results indicate that travel, personnel, and
equipment funds were misappropriated by the center director.

NSF Special Agent                 subsequently subpoenaed the internal audit report fiom i         s
General C o u n s          l , . The investigation regarding the misappropriation of state funds was
conducted by the                    1-e
                           State Police                      o w a s charged with 5 counts of
Misappropriation of state funds and 3 counts of Obtaining Money under False Pretenses.

The AUSA turned down the case for criminal prosecution as the amount in question fell below the
federal jurisdictional minimum. The        Attorney General's office prosecuted the case before
the Circuit Court of
 Findings:
                                                                           -loseout




                                                                                         -
                                                                                      Page 2




-
a            s convicted of two counts of felony fiaud by a       state court and ordered to pay
 restitution on August 23,2000. He was acquitted of the other four charges against him.
 was sentenced to 3 years incarceration for each count (conckrent, suspended), one year of
 unsupervised probation, costs of $696.00 and restitution to          On February 8,2001,
w i t h d r e w his request to appeal the sentence imposed. Consequently, the             State
 Attorney's office has closed this case.

 Subsequent to his conviction, r e s i g n e d from his job as a dean'atk-(eht


 his case is closed.
